IN THE SUPREME COURT OF THE UNITED STATES

ARMSTRONG, MARTIN A.
Petitioner
vs.

No:

19-0392

SEC, ET AL.
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
October 07, 2019
cc:
THOMAS V. SJOBOLM
LAW OFFICE OF THOMAS V.
SJOBLOM
1300 I STREET, NW
SUITE 400E
WASHINGTON , DC 20005
GEORGE W. HICKS
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20005

